<html>
<title> - MARKUP OF A COMMITTEE RESOLUTION REGARDING THE HOUSE ACADEMIC COMPETITION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     MARKUP OF A COMMITTEE RESOLUTION REGARDING THE HOUSE ACADEMIC 
                              COMPETITION

=======================================================================

                                MEETING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

               Held in Washington, DC, November 20, 2013

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
86-013                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>  

                   COMMITTEE ON HOUSE ADMINISTRATION

   CANDICE S. MILLER, Michigan, 
             Chairman

ROBERT A. BRADY, Pennsylvania, Ranking Minority Membersissippi
ZOE LOFGREN, California              PHIL GINGREY, M.D., Georgia
JUAN VARGAS, California              AARON SCHOCK, Illinois
                                     TODD ROKITA, Indiana
                                     RICHARD B. NUGENT, Florida

                           Professional Staff

   Kelly Craven, Staff Director
  Kyle Anderson, Minority Staff 
             Director


     MARKUP OF A COMMITTEE RESOLUTION REGARDING THE HOUSE ACADEMIC 
                              COMPETITION

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 11:34 a.m., in Room 
1309, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Harper, Gingrey, Schock, 
Rokita, Brady, and Vargas.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Yael Barash, Legislative 
Clerk; Salley Wood, Communications Director and Deputy Staff 
Director; Bob Sensenbrenner, Senior Counsel; John Clocker, 
Director of Policy and Planning; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Matt 
DeFreitas, Minority Professional Staff; Khalil Abboud, Minority 
Deputy Counsel; Thomas Hicks, Minority Senior Counsel; Mike 
Harrison, Minority Chief Counsel; Greg Abbott, Minority 
Professional Staff; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I would like to call to order the Committee 
on House Administration for today's committee hearing. A quorum 
is present so that we can proceed.
    The meeting record will remain open for 5 legislative days 
so that Members might submit any materials that they wish to be 
included in the record.
    The Chairman. And today we are just going to consider one 
item in the markup before we go into our hearing, a committee 
resolution regarding the House Academic Competition.
    Now, earlier this year, with the support of House 
leadership, we introduced a House resolution, the Academic 
Competition Resolution of 2013, to establish a competition that 
promotes greater innovation among students across this country 
in fields related to science, technology, engineering, and 
math, also known as STEM. The resolution, cosponsored by nearly 
every member of this committee, passed the House with an 
overwhelming 411 votes--a very clear, overdue acknowledgment 
that in our Nation we need to increase STEM awareness.
    As leaders, educators, and parents, it is our 
responsibility to help equip today's youth with the skills that 
they need to succeed. STEM research and innovation is the major 
skill set driving today's global economy, and, unfortunately, 
we are at risk of falling behind other countries and losing 
jobs to our overseas competitors. To remain competitive, we 
must increase awareness among our students and encourage 
greater participation in the STEM fields.
    With that goal in mind, in February the House adopted a 
resolution creating a competition that will allow each Member, 
each Member of Congress, to host an annual competition among 
students in his or her congressional district. And today, as 
required by that resolution, we are considering for adoption 
the regulations that will govern the competition, including 
rules pertaining to contestants, judges, and the use of 
resources.
    Under the proposed regulations, House Administration will 
appoint Members to serve as chairs and co-chairs for the 
purpose of setting specific rules and criteria for each annual 
competition. Those proposed regulations also permit for the 
competition's evolution over time so that it continues to 
challenge students in the specialized STEM areas relevant to 
ever-changing technology demands.
    It is our expectation that the House will plan its 
inaugural competition to coincide with this school year so that 
schools and educators can encourage and assist with their 
students' participation.
    Again, it is our responsibility to help to make sure that 
our students in this country can compete in the STEM fields. 
Their future and this Nation's economic success depend on it, 
which is why I am very honored to join my colleagues in 
advancing this important House initiative.
    And I now would like to recognize the ranking member, our 
colleague, Mr. Brady from Pennsylvania, for the purpose of his 
opening statement.
    Mr. Brady. Thank you, Madam Chair. I have no opening 
statement, but I do appreciate you having this meeting and 
getting this off on the right start. Thank you.
    The Chairman. Thank you.
    The Chairman. Any other Members have an opening statement 
on this particular issue?
    The chair recognizes Mr. Gingrey of Georgia.
    Mr. Gingrey. Thank you, Madam Chairman. I want to thank you 
for calling the markup today on the regulations for the 
recently established House STEM competition.
    H. Res. 77 passed with overwhelming support in February of 
this year, establishing an academic competition in the fields 
of science, technology, engineering, and math, STEM, for 
students in our congressional districts. And I was proud to 
join every member of this committee in supporting the 
resolution. I am proud to rejoin them today to adopt the 
regulations governing that competition.
    In its inaugural year, the competition will allow 
participating students to develop an app using a technology 
platform of their choice, really--a tablet, computer, mobile 
device. This competition creates a valuable chance to engage 
these students and educators--I am sure they would have a 
mentor at their local school--and highlight the importance once 
again that we talk about so much up here, I don't think we can 
talk about it too much, of STEM education, by providing an 
incentive for students in a fun and innovative way.
    After practicing medicine for nearly 30 years, I am fully 
aware of just how valuable a strong foundation in math and 
science can be for the future engineers, computer scientists, 
and doctors of our Nation. As educators and legislators, we 
must not neglect our duties to equip these young people, our 
children, these students, with the tools and the knowledge to 
build a successful career.
    All of the time, we are reading articles about people 
getting out of great schools with a graduate degree, and there 
was somebody on one of the cable news shows the other day 
selling donuts on the streets of New York, saying, ``Hire me. 
I've got''--maybe some of you all saw that clip. But, you know, 
it is really important that our students know that the job 
market of the future, and I think for a long time, is in the 
science, space, and technology and engineering and developing 
apps and software.
    So I see this competition as a valuable opportunity to get 
involved and generate that interest at an early age in STEM 
education. Because you have to do it at an early age. I look 
forward to the successful implementation of the competition, 
and I hope it will encourage students to express that 
creativity and interest in STEM for years to come.
    So, Madam Chairman, thank you. I think this is a really 
good idea, kind of like the arts competition program that we 
have.
    Thank you, and I yield back.
    The Chairman. Thank you.
    The Chairman. Any other Member have a comment?
    I appreciate, Dr. Gingrey, your comments about the STEM. I 
do think it is--first, it is sort of modeled after the Artistic 
Discovery, from that perspective, which has been an incredible 
success. There are over 300 Members of Congress now 
participating in that.
    And particularly now, when we look at STEM in that--you 
know, I think the first thing is they are going to be 
challenging the kids to do an app. I didn't even know what an 
app was until a couple years ago. Now I have an app for that, 
right?
    And these kids are so unbelievably innovative that who 
knows what they are going to come up with. So those kinds of 
things, these kinds of things, I think, can really lead to 
mentoring for them from the industry and other kinds of things 
and really help bring our kids along in all of these 
applications--the apps.
    But, at any rate, I now call up and lay before the 
committee Committee Resolution 113-6, to adopt regulations 
concerning the House Academic Competition.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] T6013A.001
    
    [GRAPHIC] [TIFF OMITTED] T6013A.002
    
    [GRAPHIC] [TIFF OMITTED] T6013A.003
    
    The Chairman. And, without objection, the first reading of 
the resolution is dispensed with. And the resolution is 
considered read and open for any amendment at any point.
    Is there any debate on the resolution?
    Are there any Members who want to offer an amendment to the 
resolution?
    If not, I move the committee adopt the resolution. And the 
question is on the motion.
    All those in favor will signify by saying aye.
    Opposed will say nay.
    In the opinion of the chair, the ayes have it. The ayes 
have it. The motion is agreed to.
    And, without objection, the motion to reconsider is laid 
upon the table.
    And I would ask the committee for unanimous consent that 
the staff be authorized to make technical and conforming 
changes to the measure the committee just considered.
    Without objection, so ordered.
    And that concludes today's markup. And the markup portion 
of this meeting is adjourned.
    [Whereupon, at 11:39 a.m., the committee proceeded to other 
business.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
